                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: 113040027                                                                    Page 1 of 1



         We conducted an investigation into potentially overlapping grants from NSF 1 and another federal
         agencr, which were awarded to a university3 . We obtained and reviewed the university's grant
         records, and determined there did not appear to be any overlapping expenses between the two
         awards. Accordingly, this case is closed.




NSF OIG Form 2 (11102)
